                                                          Memorandum
           U.S. Department of
           Transportation

           Office of the Secretary
           of Transportation
           Office of Inspector General



Subject:   INFORMATION: Notification of Review of                          Date:    January 29, 2009
           Oversight Challenges Associated with Economic
           Stimulus Funding for Transportation Projects

  From:                                                                 Reply to
           David A. Dobbs                                               Attn. of:
                                                                                    JA-1
           Principal Assistant Inspector General
             for Auditing and Evaluation

    To:    All Secretarial Officers
           All Acting Operating Administrators

           The Office of Inspector General (OIG) plans to review oversight challenges
           associated with the tens of billions of dollars for transportation projects that Congress
           and the President are considering as part of an economic stimulus package. Proposed
           versions of the legislation contain significant funding amounts for highway, transit,
           and aviation projects. Major stimulus goals will likely include near-term job creation,
           improving the U.S. transportation system, and maximizing the return on Federal
           investments.

           Such a large, rapid infusion of new funds could create significant oversight challenges
           for the Department of Transportation and the Operating Administrations that are
           likely to receive funding as part of the stimulus legislation—including the Federal
           Aviation Administration, the Federal Highway Administration, and the Federal
           Transit Administration. It is critical that the Department prepares for the potential
           risks involved and ensure that steps are underway to mitigate them.

           Our broad objective is to identify risks and oversight challenges associated with
           economic stimulus funding for transportation projects. During the course of our work
           we plan to examine potential risks related to program structure, each Operating
           Administration’s oversight process and staffing, state and local grantees’ management
           and technical capabilities, cost and schedule estimates, selection of contract types, and
           fraud deterrence efforts.
                                                                               2

We will begin our review during the week of February 2, 2009. If I can answer any
questions or be of further assistance, please contact me at (202) 366-1427, or
Joseph W. Comé, Assistant Inspector General for Highway and Transit Audits, at
(202) 366-5630.

cc:   Audit Liaison, FAA, ABU-100
      Audit Liaison, FHWA, HIAM-13
      Audit Liaison, FRA, RAD-43
      Audit Liaison, FTA, TBP-30
      Audit Liaison, MARAD, MAR-390
      Audit Liaison, OST, M-1
